            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
        STATE OF NEW YORK
     FOR THE FISCAL YEAR ENDED
           MARCH 31, 2006

     February 2008   A-77-08-00009




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM
Date:      February 13, 2008                                                  Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
           Ended March 31, 2006 (A-77-08-00009)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of New York for the Fiscal Year (FY) ended March 31, 2006. Our
           objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The accounting firms of KPMG and Toski, Schaefer & Company performed the audit.
           The Department of Health and Human Services’ (HHS) desk review concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by KPMG, Toski,
           Schaefer & Company and the reviews performed by HHS. We conducted our review in
           accordance with the Quality Standards for Inspections issued by the President’s Council
           on Integrity and Efficiency.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The New York Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The Office of
           Temporary and Disability Assistance (OTDA) is the DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported:

   1. OTDA had insufficient standards for the documentation of critical systems
      applications (Attachment, Pages 1 and 2). The corrective action plan indicates
      OTDA will make several improvements including developing written descriptions
      of documentation standards (Attachment, Pages 3 through 5).

   2. OTDA software developers inappropriately had the ability to update software in
      the production environment (Attachment, Pages 6 and 7). The corrective action
      plan indicates OTDA developed policies and procedures to control software
      developer access to the production environment (Attachment, Pages 8 and 9).

   3. OTDA did not have a plan in place for periodic testing of systems data recovery
      in the event of an interruption, and it had not performed a test to ensure a
      complete and error-free recovery of systems data (Attachment, Pages 10 and
      11). The corrective action plan indicates that recovery testing was successfully
      performed following the audit and that plans are in place to periodically run
      similar recovery testing in the future (Attachment, Pages 12 and 13).

   4. Indirect costs were charged to OTDA based on State FY 2006 cost allocation
      plan (CAP) methodologies submitted to HHS’ Division of Cost Allocation (DCA)
      but not yet approved (Attachment, Pages 14 and 15). The Corrective Action Plan
      correctly reports that indirect costs can be charged based on allocation
      methodologies that have been submitted to DCA for approval (Attachment,
      Pages 16 and 17).

We recommend SSA:

   1. Ensure OTDA develops policies and procedures to ensure the New York DDS’
      critical system applications are sufficiently documented.

   2. Verify that OTDA develops policies and procedures to control software developer
      access to the production environment.

   3. Ensure OTDA develops procedures for performing periodic data recovery testing
      of the systems used by the New York DDS.

   4. Upon approval of the State FY 2006 CAP by DCA, work with OTDA to ensure the
      indirect costs charged to the New York DDS are in accordance with the approved
      methodologies.
Page 3 – Candace Skurnik

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
questions contact Ken Bennett at (816) 936-5593.




                                             Patrick P. O’Carroll, Jr.

Attachment
 Attachment
Page 1 of 17
 Attachment
Page 2 of 17
 Attachment
Page 3 of 17
 Attachment
Page 4 of 17
 Attachment
Page 5 of 17
 Attachment
Page 6 of 17
 Attachment
Page 7 of 17
 Attachment
Page 8 of 17
 Attachment
Page 9 of 17
  Attachment
Page 10 of 17
  Attachment
Page 11 of 17
  Attachment
Page 12 of 17
  Attachment
Page 13 of 17
  Attachment
Page 14 of 17
  Attachment
Page 15 of 17
  Attachment
Page 16 of 17
  Attachment
Page 17 of 17
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
